   DEPARTMENT OF HEALTH & HUMAN SERVICES                                 OFFICE OF INSPECTOR GENERAL

                                                                         Washington, D.C. 20201




June 14, 2010

TO:             Mary Wakefield, Ph.D., R.N.
                Administrator
                Health Resources and Services Administration


FROM:           /Lori S. Pilcher/
                Assistant Inspector General for Grants, Internal Activities,
                  and Information Technology Audits


SUBJECT:        Results of Limited Scope Review at Open Cities Health Center, Inc.
                (A-05-10-00034)


The attached final report provides the results of our limited scope review at Open Cities Health
Center, Inc. (Open Cities). In accordance with the Recovery Act, the Office of Inspector General
(OIG) will provide oversight of covered funds to prevent fraud, waste and abuse.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to
report number A-05-10-00034 in all correspondence.


Attachment
Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




 RESULTS OF LIMITED SCOPE
  REVIEW AT OPEN CITIES
   HEALTH CENTER, INC.




                      Daniel R. Levinson
                       Inspector General

                          June 2010
                        A-05-10-00034
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                           Notices


      THIS REPORT IS AVAILABLE TO THE PUBLIC
                at http://oig.hhs.gov

   Section 8L of the Inspector General Act, 5 U.S.C. App., requires
   that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

   The designation of financial or management practices as
   questionable, a recommendation for the disallowance of costs
   incurred or claimed, and any other conclusions and
   recommendations in this report represent the findings and
   opinions of OAS. Authorized officials of the HHS operating
   divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to P.L. 104-299, Health Centers Consolidation Act of 1996, health centers provide
services to a population that is medically underserved. Within the U.S. Department of Health &
Human Services, the Health Resources and Services Administration (HRSA) administers the
Health Center program. The HRSA health centers are community-based and patient-directed
organizations that serve populations with limited access to health care.

Under The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion for health centers over two years.
HRSA made four types of grants available to health centers to provide for: new access points,
increased demand for services, facilities investment programs, and capital improvement
programs. Grants were provided to new and existing health centers, and a center could have
received more than one type of grant.

The Open Cities Health Center, Inc. (Open Cities) located in St. Paul, Minnesota is one of the
largest nonprofit community health centers in the Twin Cities’ area and provides medical, dental,
and mental health clinic services. Open Cities served over 17,000 clients from the Minneapolis-
St. Paul area that made 56,000 visits to the clinic in 2004.

Open Cities is funded primarily through HRSA grants, Medicare, Medicaid, local grants,
donations, and insurance payments. During fiscal year (FY) 2009, HRSA awarded two separate
two-year Recovery Act grants totaling $1,035,987 to Open Cities.

OBJECTIVE

Our objective was to assess Open Cities’ financial viability, capacity to manage and account for
Federal funds, and capability to operate a Community Health Center in accordance with Federal
regulations.

SUMMARY OF FINDINGS

Based on our assessment, Open Cities is financially viable, but certain trends for net assets and
debt may undermine the grantee’s fiscal stability if not kept in check. Furthermore, Open Cities
has the capacity to manage and account for Federal funds and the capacity to operate a
community health center in accordance with Federal regulations. However, we noted
weaknesses related to its fiscal status as well as a lack of written policies and procedures for
accounting for property, Federal Deposit Insurance Corporation (FDIC) deposit limits, and
Federal grant reporting.




                                                i
RECOMMENDATION

In determining whether Open Cities is appropriately managing and accounting for the Recovery
Act grant funding, we recommend that HRSA consider the information presented in this report in
assessing Open Cities’ ability to operate a Community Health Center in accordance with Federal
regulations.

OPEN CITIES COMMENTS

In written comments on our draft report, Open Cities stated that cash flow has been a challenge
for several years. To improve its financial viability the clinic has focused on improving
operational efficiencies to control or reduce expenses, and cash flow is monitored closely by
management and the Board of Directors. The clinic is beginning to receive partial payments
from the Minnesota Department of Human Services for outstanding receivables estimated at over
$1 million. Open Cities also stated that it will be updating its policies and procedures to include
language specific to accounting for funding from the Recovery Act, developing policies and
procedures specific to deposits in excess of the FDIC insured limit of $250,000 in a single bank
account, and extending its yearly physical inventories to include all applicable property and
equipment.




                                                ii
                                                  TABLE OF CONTENTS
                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              The Health Center Program ...........................................................................1
              Open Cities Health Center .............................................................................1
              Requirements for Federal Grantees ………………………………………...1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATION.........................................................................3

          FINANCIAL VIABILITY .........................................................................................3

          POLICIES AND PROCEDURES .............................................................................4

          RECOMMENDATION .............................................................................................4

          OPEN CITIES COMMENTS ....................................................................................5

APPENDIX: OPEN CITIES COMMENTS




                                                                    iii
                                            INTRODUCTION

BACKGROUND

The Health Center Program

Pursuant to Public Law 104-299, the Health Centers Consolidation Act of 1996, health centers
provide services to a population that is medically underserved. Within the U.S. Department of
Health & Human Services, the Health Resources and Services Administration (HRSA)
administers the Health Center program.

The HRSA health centers are community-based and patient-directed organizations that serve
populations with limited access to health care. The health centers provide comprehensive,
culturally competent, quality primary health care services to medically underserved communities
and vulnerable populations.

Under The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion for health centers over two years.
HRSA made available four types of grants to health centers to provide for: new access points,
increased demand for services, facilities investment programs, and capital improvement
programs. Grants were provided to new and existing health centers, and a center could have
received more than one type of grant.

Open Cities Health Center

The Open Cities Health Center, Inc. (Open Cities) located in St. Paul, Minnesota is one of the
largest nonprofit community health centers in the Twin Cities’ area and provides medical, dental,
and mental health clinic services. Open Cities served over 17,000 clients from the Minneapolis-
St. Paul area that made 56,000 visits to the clinic in 2004.

Open Cities is funded primarily through HRSA grants, Medicare, Medicaid, local grants,
donations, and insurance payments. During fiscal year (FY) 2009, HRSA awarded two separate
two-year Recovery Act grants 1 totaling $1,034,987 to Open Cities.

Requirements for Federal Grantees

Pursuant to 45 CFR part 74, grantees of Federal awards must implement written accounting
policies and procedures and maintain financial systems that provide for accurate and complete
reporting of grant related financial data, effective control over grant funds, and allocation of
costs to all benefitting programs. In addition, grantees must establish written procurement
procedures. Grantees are also required to maintain inventory control systems and take periodic
physical inventory of grant related equipment. In addition, pursuant to 45 CFR § 74.27, the
allowability of costs incurred by nonprofit organizations is determined in accordance with the
provisions of Office of Management and Budget Circular A-122, Cost Principles for Nonprofit

1
 The increased demand for services grant period was from March 27, 2009, through March 26, 2011. The capital
improvement program grant period was from June 29, 2009, through June 28, 2011.

                                                      1
Organizations. Finally, section 330 of the Public Health Service Act defines requirements for
health centers under the Health Center program (42 USCS § 254b).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess Open Cities’ financial viability, capacity to manage and account for
Federal funds, and capability to operate a Community Health Center in accordance with Federal
regulations.

Scope

We conducted a limited scope audit to assess Open Cities’ capacity to manage, account for, and
report Recovery Act funds and to operate a HRSA funded health center in accordance with
Federal regulations. Therefore, we did not perform an overall assessment of Open Cities’
internal control structure. Rather, we reviewed only the internal controls that pertained directly
to our objectives. Our review period was January 1, 2006, through October 31, 2009.

We performed our fieldwork at the Open Cities’ administrative office in St. Paul, Minnesota,
during January 2010.

Methodology

To accomplish our objective, we:

   •    confirmed that Open Cities was not excluded from receiving Federal funds;

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed Open Cities’ application and implementation of the grant awards for the
        Recovery Act funding;

   •    reviewed the findings related to the most recent HRSA review;

   •    reviewed Open Cities’ policies and procedures related to the Health Center Program;

   •    reviewed Open Cities’ by-laws, minutes from its Board of Director meetings, and its
        organizational chart;




                                                 2
   •   performed audit steps to assess the adequacy of Open Cities’ current financial systems;
       and

   •   reviewed Open Cities’ audited financial statements and supporting documentation for the
       period of January 1, 2006, through December 31, 2008.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATION

Based on our assessment, Open Cities is financially viable, but certain trends for net assets and
debt may undermine the grantee’s fiscal stability if not kept in check. Furthermore, Open Cities
has the capacity to manage and account for Federal funds and the capacity to operate a
community health center in accordance with Federal regulations. However, we noted
weaknesses related to its fiscal status as well as a lack of written policies and procedures for
accounting for property, Federal Deposit Insurance Corporation (FDIC) deposit limits, and
Federal grant reporting.

FINANCIAL VIABILITY

To determine whether Open Cities is financially viable, we performed liquidity and stability
analyses of Open Cities’ finances for fiscal years (FY) 2006 through 2008. Our analysis of Open
Cities’ fiscal status provided conflicting indicators of financial viability.

During FYs 2006 through 2008, Open Cities had temporarily restricted net asset ratios of 1.94,
0.90, and 4.17, respectively. The high ratios (ratio greater than 1:1) indicate that Open Cities
may be borrowing from net assets intended for use in future periods. During the same period
Open Cities had unrestricted net asset ratios of (0.29), (0.16), and (0.08). These negative ratios
indicate that Open Cities has a negative unrestricted net asset balance and, therefore has no
reserve to meet temporary cash shortages, emergencies, or deficit situations in the future. We
also performed a debt ratio analysis which is used to determine the overall financial risk of the
organization. Open Cities had debt ratios of 1.3, 1.18, and 1.02 during the audit period. A debt
ratio greater than 1 indicates that a company has more debt than assets. Additionally, Open
Cities total liabilities were greater than total assets over the last three fiscal years.

Open Cities also had positive indicators of fiscal status for FYs 2006 through 2008. The current
ratio for each of the three FYs was 1.46, 1.78, and 1.76, respectively. The quick ratios for the
same period were 1.43, 1.72, and 1.72. Current and quick ratios greater than 1 are considered
good. Net working capital (current assets-current liabilities) was positive for all three years with
balances of $756,795, $1,124,977, and $1,307,038, respectively. Also, revenues exceeded
expenses for the three years with surpluses of $845,612, $932,581, and $911,321, respectively.


                                                 3
Although we identified certain negative trends and conditions during our financial status
analysis, we believe Open Cities is a financially viable organization. However, we would
encourage a higher level of monitoring due to the negative financial trends identified during our
review.

POLICIES AND PROCEDURES

Pursuant to 45 CFR part 74, grantees of Federal awards must implement written accounting
policies and procedures and maintain financial systems that provide for accurate and complete
reporting of grant related financial data, effective control over grant funds, and allocation of
costs to all benefitting programs.

In order to comply with Federal regulations, Open Cities needs to implement policies and
procedures for:

   •   inventory of property;

   •   deposits in excess of FDIC insured limit of $250,000 in a single bank account; and

   •   grant reporting based on Recovery Act requirements.

Although we did not find any discrepancies in property inventory, bank balances in excess of
$250,000, or improper grant reporting, Open Cities did not have these written policies and
procedures as required for Federal grantees. The development and implementation of written
policies and procedures is essential considering Open Cities has property and equipment with a
booked cost in excess of $2.5 million. Additionally, the large award of Recovery Act funds
could result in balances exceeding the $250,000 FDIC insured limit.

RECOMMENDATION

In determining whether Open Cities is appropriately managing and accounting for the Recovery
Act grant funding, we recommend that HRSA consider the information presented in this report in
assessing Open Cities ability to operate a Community Health Center in accordance with Federal
regulations.




                                                 4
OPEN CITIES COMMENTS

In written comments on our draft report, Open Cities stated that cash flow has been a challenge
for several years. To improve its financial viability the clinic has focused on improving
operational efficiencies to control or reduce expenses, and cash flow is monitored closely by
management and the Board of Directors. The clinic is beginning to receive partial payments
from the Minnesota Department of Human Services for outstanding receivables estimated at over
$1 million. Open Cities also stated that it will be updating its policies and procedures to include
language specific to accounting for funding from the Recovery Act, developing policies and
procedures specific to deposits in excess of the FDIC insured limit of $250,000 in a single bank
account, and extending its yearly physical inventories to include all applicable property and
equipment.




                                                5
APPENDIX
                                           APPENDIX: OPEN CITIES COMMENTS 

~en Cities
         ~ J~I\ / \., 

~~.!~~:: ( V I LLf I 

409 N. Dunlap St. • St. Paul, MN 55104· PHONE: 651·290-9200. FAX: 651-290-9210 • Administration Fax: 651-290-9210. Medical Fax: 651-290-9201



             April 5, 2010

             Mike Barton, Audit Manager 

             Office ofinspector General 

             Office of Audit Services, Region V 

             233 North Michigan Avenue 

             Suite 1360 

             Chicago, IL 6060 I 


             Re: Report Number A-05-10-00034

             Dear Mr. Barton:

             Below are our comments written in response to the report and letter from Mr. James C. Cox,
             Regional Inspector General for Audit Services, dated March 31, 2010, regarding the Limited
             Scope Review at Open Cities Health Center.

             ###

             FINANCIAL VIABILITY

             Despite the current difficult economic environment, Open Cities went to great lengths to avoid
             taking on any new long-term debt agreements to fund operations in 2009. Rather than funding
             operations through new debts, the clinic has focused on improving operational efficiencies to
             control or reduce expenses. As your findings indicate, Open Cities' debt ratio has improved from
             1.3 to 1.02 from FY2006 to FY2008. Open Cities' net asset balance improved from ($2,208,306)
             at the end of FY2006 to ($128,190), a change of $2,080,116 in three years. Revenues have
             exceeded expenses since FY2006, and we expect to end FY2009 with similarly positive results.

             Cash flow has been a challenge for the clinic for several years, but it is closely monitored daily by
             management and monthly by the Finance Committee and Board of Directors. The clinic needed
             to borrow from its line of credit on a few occasions due to short-term cash shortfalls in 2009, but
             as of the writing of this letter, no funds are currently drawn from the $300,000 line of credit.
             Open Cities will continue to work towards stabilizing the clinic's cash position. In 2008, Open
             Cities entered into a lawsuit filed jointly with five other Federally Qualified Health Centers in
             Minnesota against the Minnesota Department of Human Services (DHS) to end the delays in
             DHS's remittance of supplemental Medical Assistance payments to Open Cities covering medical
             and dental encounter claims for years 2003 through 2007. Outstanding receivables from DHS are
             estimated at over $1 million. Clearly, the delays in DHS's supplemental payments to Open Cities
             have caused strains on clinic's cash position over the years. Open Cities, however, is finally
             beginning to receive partial payments for these claims which will only further improve Open
             Cities' net asset balance and net working capital as the clinic improves both its liquidity and
             stability and steadily pays down its long-term debt obligations.

             Open Cities' 2007-2010 Strategic Plan, formulated by key Open Cities staff and members of the
             Board of Directors, calls for the development of 30 to 60 days' operating reserve to further



                                                            EEO / AA Employer
improve the clinic's stability and security. The Strategic Planning Team, still is scheduled to
meet this coming May to review and update the Strategic Plan in light of Open Cities'
accomplishments and new challenges.

POLICIES AND PROCEDURES

Open Cities' Chief Financial Officer and the Finance Committee will be updating Open Cities
Financial Policies and Procedures in 2010 as indicated in our Finance Committee and Board
minutes. Updates to the Policies and Procedures will include language specific to accounting for
funding from the American Recovery and Reinvestment Act (ARRA). Open Cities' current
procedures for accounting for the receipt, allocation, and expenditure of ARRA funding are
secure, but we recognize that these procedures must be documented in accordance with 45 CFR
part 74.

Open Cities will also develop policies and procedures specific to deposits in excess of the FDIC­
insured limit of $250,000 in a single bank account. Currently, Open Cities is able to insure the
entirety of its cash deposits by limiting balances on an interest-bearing savings account to
$250,000 and depositing the remainder in a non-interest-bearing checking account, which under
the FDIC's Transaction Account Guarantee Program is insured with no upper dollar value limit as
long as no interest is earned under the account. Through its update of its Policies and Procedures
this year, Open Cities will thoroughly evaluate whether or not the clinic would require additional
savings accounts in light of the insurance limits and the clinic's average cash balances.

Lastly, Open Cities will also begin to conduct yearly physical inventories of its property in
accordance with the audit recommendations. Currently, Open Cities conducts physical
inventories of its computer equipment. Before year end, Open Cities will extend physical
inventories to include all applicable property and equipment, and document these policies and
procedures in its manual.

###

We hope these comments have sufficiently addressed at this time the concerns outlined in the
report. Open Cities will continue to work towards improving its operations, making judicious use
of essential Federal funding. If you have any questions regarding this letter, please do not
hesitate to contact me at 651-290-9245 or at doriLgbolo@ochealthcenter.com.

Regards,


Dorii Gbolo
Executive Director
